                    ASSETS FORFEITURE FUND
                              AND
                   SEIZED ASSET DEPOSIT FUND
                  ANNUAL FINANCIAL STATEMENT
                        FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

       The Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF)
is a reporting entity within the U.S. Department of Justice (DOJ). The
AFF/SADF were created to serve as repositories for funds seized by
participating agencies and the sale proceeds from forfeited property. The
proceeds deposited in the AFF are used to cover certain operating costs of
the DOJ Asset Forfeiture Program. These include equitable sharing
payments to state, local, and foreign governments; joint law enforcement
operations; contract services in support of the program; and satisfaction of
innocent third party claims. Operational expenses do not include the salaries
and administrative expenses of Asset Forfeiture Program participants
incurred while conducting investigations leading to seizure and forfeiture,
and these expenses are not reported in the AFF/SADF financial statements.

      This audit report contains the Annual Financial Statements of the
AFF/SADF for the fiscal years (FY) ended September 30, 2009, and
September 30, 2008. Under the direction of the Office of the Inspector
General (OIG), KPMG LLP performed the AFF/SADF’s audit in accordance
with U.S. generally accepted government auditing standards. The audit
resulted in an unqualified opinion on the FY 2009 financial statements. An
unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and results of the entity’s operations
in conformity with U.S. generally accepted accounting principles. For
FY 2008, the AFF/SADF also received an unqualified opinion on its financial
statements (OIG Report No. 09-19).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. For FY 2009, the
Independent Auditors’ Report on Internal Control over Financial Reporting
identified one significant deficiency related to improvements needed in the
seized and forfeited property management environment, which has been
reported annually since FY 2006. No instances of noncompliance with laws
and regulations or other matters were identified during the audit.




                                      -i-
       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the AFF/SADF’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the AFF/SADF’s financial management systems substantially
complied with the Federal Financial Management Improvement Act of 1996,
or conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 5, 2009, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with U.S.
generally accepted government auditing standards.




                                    - ii -
